IN THE SUPREME COURT OF THE UNITED STATES

No. 19-422

PATRICK J. COLLINS, et al., Petitioners,
v.

STEVEN T. MNUCHIN, ef al., Respondents.

CERTIFICATE OF SERVICE

I, Richard Samp, counsel for amicus curiae The New Civil Liberties Alliance (NCLA)
and a member of the Bar of this Court, hereby certify that on this 23rd day of September, 2020,
three copies of the brief of NCLA as amicus curiae in support of Petitioners was sent via U.S.

mail to the following:

Jeffrey B. Wall Aaron L. Nielson Charles J. Cooper

Acting Solicitor General Clark Law School Cooper & Kirk, PLLC
U.S. Department of Justice Brigham Young University 1523 New

850 Pennsylvania Ave., NW 516 JRCB Hampshire Ave., NW
Washington, DC 20530-0001 Provo, UT 84602 Washington, DC 20036
SupremeCtBriefs@usdoj.gov neilsona@law.byu.edu ccooper@cooperkirk.com
202-514-2217 801-422-2669 202-220-9600

I further certify that electronic copies of the brief were emailed to each of the three

individuals listed above and that all parties required to be served have been served.

  

Richard A. Samp
New Civil Liberties Alliance
1225 Nineteenth Street, NW
Washington, DC 20036
202-869-5210
